U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Delson Marc v. United States of America,
S.Ct. No. 20-8071

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 14,
2021, and placed on the docket on May 19, 2021. The government’s response is due on June 18,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8071
MARC, DELSON
USA

SHERYL JOYCE LOWENTHAL
SHERYL J. LOWENTHAL, ATTORNEY AT LAW
9130 SOUTH DADELAND BLVD.
STE. 1511
MIAMI, FL 33156-7851
305-670-3360
SJLOWENTHAL@APPEALS.NET

